2311 Douglas Street

Omaha, Nebraska68102-1214

......::_,,,,.~Legal

E

Briefs

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com

No. 19-1074
CELGENE CORPORATION,
Petitioner,
v.
LAURA A. PETER, DEPUTY UNDER SECRETARY
OF COMMERCE FOR INTELLECTUAL PROPERTY
AND DEPUTY DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33. l(h), I certify that the BRIEF OF AMICI CURIAE
INTELLECTUAL PROPERTY LAW PROFESSORS IN SUPPORT OF PETITIONER in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.l(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5287 words, excluding the parts that are exempted by Supreme Court Rule 33.l(d),
as needed.

Subscribed and sworn to before me this 3 lst day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

